MONTANA UNIVERSITY SYSTEM
OFF’IUE OF’ ‘i’iii’

(‘

)MINIISSIONEH OF 11I(;IIER

560 North Park Ave P0 Box 203201- Helena, Montana 59620-3201
(406) 449-9124 FAX (406) 449-9171
—

—

Office of Legal Counsel
Viv Hammill, Chief Legal Counsel

November 8, 2019
VIA ELECTRONIC FILING AND FEDERAL EXPRESS
The Honorable Scott S. Harris
Clerk of the Court Supreme Court of the United States
One First Street, N.E. Washington, DC 20543
Dear Mr. Harris:

--—

.

RE: No. 19-600, docketed November 7, 2019, Jon Krakauer v. State of Montana, and its
Commissioner of Higher Education, Clayton T. Christian.
Dear Mr. Harris:
On behalf of the State Respondents, I request a 30-day extension, to file a brief in
opposition to the above referenced petition for certiorari. See Sup. Ct. R. 30. 4. There
is good cause to grant the extension considering pressing deadlines, a preplanned out
of state family vacation at Thanksgiving, and, most important, the need to consult with
outside legal counsel who practice in the United States Supreme Court.
Accordingly, I respectfully request a thirty (30) day extension of time, until January 8,
2020 to file a brief in opposition to the Petition for Certiorari.
I thank you in advance for your time and attention in considering this matter.
Respectfully submitted,

Vivian V. Hammill
Chief Legal Counsel
cc: Peter Michael Meloy,
Counsel for Petitioner
David R. Paoli,
Counsel for John Doe

